Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    UPDATE: MEDICARE
  PAYMENTS FOR END STAGE
   RENAL DISEASE DRUGS




                    Daniel R. Levinson
                     Inspector General

                      March 2014
                     OEI-03-12-00550
EXECUTIVE SUMMARY: UPDATE: MEDICARE PAYMENTS FOR END STAGE
RENAL DISEASE DRUGS
OEI-03-12-00550

WHY WE DID THIS STUDY
Prior to 2011, Medicare paid dialysis facilities for the treatment of end stage renal disease
(ESRD) using a combination of a fixed rate (known as the “composite rate”) and separate
payment amounts based on average sales prices (ASP) for certain drugs. As of January 2011,
Federal law required the Centers for Medicare & Medicaid Services (CMS) to bundle Medicare
reimbursement for almost all ESRD treatments—including drugs that were previously billed
separately—into one payment rate. By implementing the bundled rate, CMS sought to eliminate
incentives to overuse separately billable drugs and to promote equitable payment and access to
services in ESRD facilities that treat more costly patients. CMS is required to update this rate
annually to reflect changes in the price of goods and services used to provide ESRD care. CMS
used the PPI for Prescription Drugs, a price proxy published by the Bureau of Labor Statistics, to
update the prescription drugs portion of the base rate for the ESRD payment bundle. However, a
2010 OIG study questioned the accuracy of this price proxy when used to estimate changes in
prices for ESRD drugs.

HOW WE DID THIS STUDY
We obtained first-quarter 2012 average acquisition costs for the 11 drugs that were separately
billable prior to the implementation of the ESRD payment bundle by surveying 3 large dialysis
chains, a random sample of 200 independent (i.e., freestanding) dialysis facilities not affiliated
with these chains, and 200 hospital-based dialysis facilities. We compared the average
acquisition costs for each facility type to the amounts paid for these drugs under the base rate for
the ESRD payment bundle. Using first-quarter 2009 data that we collected for the 2010 OIG
report, we determined the extent that facility acquisition costs have changed in relation to the
amounts estimated by the PPI for Prescription Drugs. Finally, to compare the prior and current
payment methodologies for ESRD drugs, we compared the drugs’ ASP-based payment amounts
in first-quarter 2012 to the amounts paid under the ESRD base rate.

WHAT WE FOUND
In the first quarter of 2012, independent dialysis facilities could purchase ESRD drugs for less
than the reimbursement amounts provided by the ESRD base rate (9 percent below, in the
aggregate), but average acquisition costs for hospital-based dialysis facilities exceeded
reimbursement amounts (5 percent above, in the aggregate). In the past 3 years, dialysis
facilities’ average acquisition costs for the majority of drugs under review have decreased, but
average costs for epoetin alfa, a drug that represented more than three-quarters of the drug costs
in responding facilities, have increased by at least 17 percent. We also found that although
acquisition costs for most drugs decreased, the PPI for Prescription Drugs estimated a 25-percent
increase in drug costs—meaning that this proxy was not an accurate predictor of cost changes for
most drugs under review. Lastly, we found that if the ASP-based reimbursement had remained
in effect for the first quarter of 2012, payment amounts for the bundle of ESRD drugs would
have differed by less than a dollar per treatment.
WHAT WE RECOMMEND
Federal law required CMS to reduce the ESRD payment bundle’s base rate for 2014 to reflect
changes in utilization and should take into account recent drug sales and pricing data. Our
findings show that acquisition costs for most of the drugs under review have decreased, but the
costs for drugs that represented the majority of facilities’ total drug costs have increased. This
means that any savings resulting from a decrease in utilization may potentially be offset by the
drugs’ cost increase. In addition, although independent dialysis facilities could acquire the
majority of ESRD drugs for less than Medicare reimbursement, any reductions to the ESRD base
rate could potentially harm hospital-based dialysis facilities because these facilities had difficulty
purchasing ESRD drugs for less than reimbursement, in the aggregate.

Therefore, we recommend that CMS rebase (i.e., redetermine the basis of) the ESRD base rate to
reflect current trends in drug acquisition costs, as required by law; distinguish payments in the
ESRD base rate between independent and hospital-based dialysis facilities; and consider
updating the ESRD payment bundle using a factor that takes into account drug acquisition costs.
CMS did not explicitly state whether it concurred with our first recommendation, did not concur
with our second recommendation, and concurred with our third recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................13 

           Independent dialysis facilities purchased ESRD drugs for less 

           than the drugs’ reimbursement amounts in the ESRD base rate, 

           but the acquisition costs for hospital-based facilities exceeded

           reimbursement amounts, in the aggregate .....................................13 

           Although the average facility acquisition costs for the majority 

           of drugs under review decreased in the past 3 years, costs for 

           ESAs have increased......................................................................16 

           The PPI for Prescription Drugs was not an accurate predictor                                        

           of cost changes between 2009 and 2012 for most drugs under 

           review.............................................................................................17 

           If ASP-based reimbursement had remained in effect for the first 

           quarter of 2012, payment amounts for the bundle of ESRD          

           drugs would have differed by less than a dollar per treatment ......18 

Conclusion and Recommendations ............................................................20 

           Agency Comments and Office of Inspector General Response.....23 

Appendixes ................................................................................................25 

           A: Detailed Methodology for Calculating the Individual-Drug 

           Payment Portions of the ESRD Base Rate .....................................25 

           B: Detailed Methodology for Selecting Dialysis Facilities ..........29 

           C: Difference Between Medicare Reimbursement and Costs 

           Paid by Large Chain and Smaller Independent Dialysis                                      

           Facilities.........................................................................................31 

           D: Agency Comments ...................................................................33 

Acknowledgments......................................................................................36 

                 OBJECTIVES
                 1.	 To compare first-quarter 2012 facility acquisition costs for selected
                     end stage renal disease (ESRD) drugs to the amounts that Medicare
                     Part B paid for these drugs under the new ESRD bundled base rate.
                 2.	 To determine how facility acquisition costs for selected ESRD drugs
                     have changed in relation to inflation, from the first quarter of 2009 to
                     the first quarter of 2012.
                 3.	 To compare the average sales price (ASP)-based reimbursement
                     amounts for selected ESRD drugs to the amounts paid under the new
                     ESRD bundled base rate.

                 BACKGROUND
                 Effective January 1, 2011, the Centers for Medicare & Medicaid Services
                 (CMS) implemented a statutorily mandated change in the payment method
                 for ESRD treatment to a comprehensive system that bundles the payment
                 for services and drugs into a single per-treatment rate. To develop the
                 base rate for the ESRD payment bundle, CMS used treatment counts from
                 2007 claims data and updated these to estimate 2011 average payment per
                 treatment data. The payment bundle includes drugs that, prior to 2011,
                 were billed separately and paid on the basis of 106 percent of the
                 manufacturer-reported ASP.
                 The ESRD payment bundle sought to reduce the incentives to overutilize
                 profitable ESRD drugs, particularly erythropoietin-stimulating agents
                 (ESAs), which had been previously paid under the ASP-based payment
                 methodology.1 A December 2012 study by the Government Accountability
                 Office (GAO) found that utilization of ESRD drugs in 2011 was about
                 23 percent lower, on average, than utilization in 2007, mostly because of a
                 large decline in ESA use.2 Because the ESRD base rate was based on
                 2007 utilization levels, CMS may have paid more than necessary for
                 dialysis care in 2011. GAO concluded that the current payment bundle is
                 excessive and that rebasing it could result in more appropriate payments to
                 dialysis facilities and substantial savings for Medicare. A May 2013
                 Office of Inspector General (OIG) report had similar findings and reported




                 1
                  75 Fed. Reg. 49030, 49032 (Aug. 12, 2010). 

                 2
                  GAO, End-Stage Renal Disease: Reduction in Drug Utilization Suggests Bundled

                 Payment Is Too High (GAO-13-190R), December 2012.


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                        1
                 that Medicare and its beneficiaries could have saved $510 million on
                 ESAs if CMS had adjusted payments to reflect utilization in 2011.3
                 Treatment of ESRD
                 ESRD is a condition in which the kidneys no longer function at the level
                 necessary for day-to-day life. The loss of kidney function in ESRD is
                 usually irreversible and permanent. Treatment options include kidney
                 transplantation and dialysis. One common complication of ESRD is
                 anemia, a deficiency in red blood cells. ESAs, such as epoetin alfa (trade
                 name Epogen) and darbepoetin alfa (trade name Aranesp) treat anemia by
                 increasing the number of red blood cells.
                 Most individuals with ESRD are eligible for benefits under Medicare
                 Part B. In 2011, approximately 442,000 beneficiaries qualified for ESRD
                 treatment under Medicare Part B.4 Beneficiaries typically receive dialysis
                 treatments from either independent (i.e., freestanding) or hospital-based
                 facilities that are approved to furnish dialysis services directly to ESRD
                 patients. Both types of dialysis facilities provide outpatient maintenance
                 dialysis (including dialysis performed by an appropriately trained patient
                 and caregiver at home). The majority (64 percent) of independent dialysis
                 facilities are owned or managed by one of the three large chain
                 organizations. Facilities are considered hospital based if they are
                 integrated into a hospital’s financial and administrative systems, among
                 other criteria.5 As of August 2012, independent dialysis facilities
                 accounted for 94 percent of all facilities and hospital-based dialysis
                 facilities represented only 6 percent.
                 Medicare Payments to Dialysis Facilities Prior to 2011
                 Composite Rate. Prior to January 1, 2011, CMS reimbursed dialysis
                 facilities on the basis of a prospective payment system (PPS) known as the
                 composite rate. Facilities received a fixed composite rate payment for
                 each dialysis treatment they provided. The composite rate was composed
                 of a labor and nonlabor portion, with an add-on adjustment for the area
                 wage index. The rate included most items related to dialysis services,
                 such as (1) labor costs; (2) certain laboratory services; and (3) certain
                 drugs, such as antihistamines, glucose, and insulin.
                 Separately Billable Drugs. Certain drugs typically administered by
                 physicians or other health care professionals were not included in the

                 3
                   OIG, Medicare and Beneficiaries Could Save Millions If Dialysis Payments Were
                 Adjusted for Anemia Management Drug Utilization (A-01-12-00522), May 2013.
                 4
                   The Henry J. Kaiser Family Foundation, Medicare Enrollment: Hospital Insurance
                 and/or Supplementary Medical Insurance Enrollees With End-Stage-Renal Disease, as of
                 July 2011. Accessed at http://www.statehealthfacts.org on February 21, 2013.
                 5
                   42 CFR § 413.174(c)(4)–(5).

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                         2
                 composite rate.6 Medicare paid for these separately billable drugs,
                 including epoetin alfa and darbepoetin alfa, at 106 percent of their
                 manufacturer-reported ASP when they were furnished in dialysis
                 facilities.7, 8 Previous OIG reports have found that many facilities,
                 particularly the independent facilities owned or managed by a chain, could
                 acquire the majority of the separately billable drugs for less than the
                 Medicare payment amounts.9
                 Some policymakers raised concerns that the ASP-based reimbursement
                 methodology created incentives for dialysis facilities to overutilize
                 separately billable drugs.10 When the reimbursement amounts exceeded
                 the price that facilities paid to acquire the drugs, which happened with the
                 ESA epoetin alfa, facilities could increase their profits by administering
                 more of the drug. The Food and Drug Administration (FDA) has issued
                 warnings that overuse of ESAs could harm patients because ESAs increase
                 the risks of blood clots, strokes, heart attacks, and death.11 In March 2007
                 and June 2011, FDA issued “black box” warnings on certain ESA labels,
                 advising physicians to monitor red blood cell levels and adjust dosages to
                 maintain the lowest levels necessary.12, 13


                 6
                   Epoetin alfa and darbepoetin alfa were covered as separately billable drugs even if they
                 were self-administered by the patient and not by a physician or health care professional.
                 CMS, Medicare Benefit Policy Manual, ch. 11, §§ 30.4.2 (rev. 1, Oct. 1, 2003) and 90
                 (rev. 8, March 5, 2004).
                 7
                   CMS, Medicare Claims Processing Manual, ch. 8, § 60.2.2; 42 CFR
                 § 414.904(d)(2)(iii).
                 8
                   With certain exceptions, including specific vaccines; 42 CFR § 414.904(e).
                 9
                   For example, see OIG, End Stage Renal Disease Drugs: Facility Acquisition Costs and
                 Future Medicare Payment Concerns (OEI-03-09-00280), September 2010; and OIG,
                 Medicare Reimbursement for End Stage Renal Disease Drugs: Third Quarter 2006
                 (OEI-03-06-00590), June 2007.
                 10
                    House Committee on Ways and Means, Subcommittee on Health, Stark Announces a
                 Hearing on Ensuring Kidney Patients Receive Safe and Appropriate Anemia
                 Management Care, June 26, 2007. Accessed at http://www.gpo.gov/fdsys/pkg/CHRG-
                 110hhrg49981/html/CHRG-110hhrg49981.htm on June 24, 2013. GAO, End-Stage
                 Renal Disease: Bundling Medicare’s Payment for Drugs with Payment for All ESRD
                 Services Would Promote Efficiency and Clinical Flexibility (GAO-07-77),

                 November 2006.

                 11
                    FDA, Public Health Advisory: erythropoiesis-stimulating agents (ESAs), 

                 March 9, 2007. Accessed at
                 http://www.fda.gov/ForConsumers/ByAudience/ForPatientAdvocates/HIVandAIDSActiv

                 ities/ucm124262.htm on April 5, 2013. FDA, FDA Drug Safety Communication:

                 Modified dosing recommendations to improve the safe use of Erythropoiesis-Stimulating

                 Agents (ESAs) in chronic kidney disease, June 24, 2011. Accessed at 

                 http://www.fda.gov/drugs/drugsafety/ucm259639.htm on April 5, 2013.

                 12
                    Ibid. 

                 13
                    “Black box” warnings (alerts on the labels of prescription drugs to indicate serious or

                 life-threatening risks) were issued for epoetin alfa (Epogen and Procrit) and darbepoetin

                 alfa (Aranesp).


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                               3
                 Medicare Bundled Payments to Dialysis Facilities
                 Effective January 1, 2011, section 1881(b)(14) of the Social Security Act
                 (the Act), as added by section 153(b) of the Medicare Improvements for
                 Patients and Providers Act of 2008 (MIPPA), P.L. 110-275, required
                 payment for all Part B items and services used in the treatment of ESRD,
                 including drugs that were separately billable, to be combined into a single
                 bundled rate.14 By implementing the bundled rate, CMS sought to
                 eliminate incentives to overuse separately billable drugs and to promote
                 equitable payment and access to services in ESRD facilities that treat more
                 costly patients.15
                 The ESRD PPS is being phased in over 4 years; full implementation began
                 January 1, 2014. During the transition period, facilities receive a “blend
                 of the payment rates” based on (1) payment rates under the new bundle
                 system and (2) the previous composite rate and ASP-based payment
                 methods. However, facilities were given a one-time opportunity to opt out
                 of the phase-in.16, 17 Eighty-seven percent of dialysis facilities opted out of
                 the phase-in and accepted full payment under the ESRD PPS starting in
                 January 2011.18
                 ESRD Payment Bundle. The ESRD PPS payment bundle is composed of
                 payments for the various components of dialysis services, such as the
                 composite rate, separately billable drugs, and laboratory tests. As
                 described in the preamble to the August 2010 final rule that created the
                 ESRD payment bundle, CMS calculated the ESRD base rate for 2011
                 using 2007 Medicare allowable payment (MAP) amounts
                 (i.e., reimbursement) for each component included in the bundle and
                 divided the MAP amounts by the number of dialysis treatments per patient
                 in 2007.19 CMS updated this amount to reflect estimated 2011 amounts.20
                 This resulted in an overall payment amount of $229.63 per treatment in
                 2011.21 CMS can further adjust this base rate for individual dialysis

                 14
                    Vaccines are excluded from the bundled rate. 

                 15
                    75 Fed. Reg. 49030, 49032 (Aug. 12, 2010). 

                 16
                    The Act, § 1881(b)(14)(E)(ii). 

                 17
                    Facilities had to notify their respective Medicare contractors of their decision to opt out 

                 of the phase-in on or before November 1, 2010.

                 18
                    76 Fed. Reg. 18930, 18932 (Apr. 6, 2011).

                 19
                    CMS used 2007 as the basis for the 2011 bundled rate because it had the lowest

                 per-patient utilization when compared to 2008 and 2009. 

                 20
                    In accordance with section 1881(b)(14)(A)(ii) of the Act, the estimated 2011 total

                 payments under the ESRD base rate must equal 98 percent of the estimated total amount

                 of payments that would have been made in that year if the payment bundle had not been

                 implemented. As a result, CMS applied a 2-percent budget-neutrality reduction to the 

                 base rate, as well as a reduction for an outlier adjustment and a standardization

                 adjustment. 

                 21
                    75 Fed. Reg. 49030, 49082 (Aug. 12, 2010). 


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                    4
                 facilities on the basis of factors such as its patient-level characteristics and
                 volume of treatments administered.
                 Drugs in the ESRD Payment Bundle That Were Formerly Separately
                 Billable. CMS identified and used the 11 highest expenditure separately
                 billable ESRD drugs in 2007 as the primary basis for the “separately
                 billable drugs” component of the payment bundle.22 CMS selected these
                 11 drugs because they accounted for over 99 percent23 (about $2.7 billion)
                 of total Part B spending on ESRD drugs in 2007. Payments for epoetin
                 alfa accounted for the majority ($1.9 billion) of total Part B spending on
                 these 11 ESRD drugs.
                 Because CMS used MAP amounts from 2007, it had to project these data
                 to estimate the per-treatment reimbursement in 2011 for each of the
                 separately billable drugs. To calculate the percentage updates used to
                 make these estimates, CMS (1) inflated the second-quarter 2010
                 ASP-based payment amounts (the most recently available at the time) by
                 3.9 percent (i.e., the inflation rate determined by the Producer Price Index
                 (PPI) for Prescription Drugs24) and (2) calculated the percentage difference
                 between these inflated ASP amounts and the average 2007 ASP payment
                 amounts. See Table 1 and Appendix A for details on how CMS calculated
                 the average per-treatment reimbursement amounts for each drug in the
                 ESRD base rate.




                 22
                    Although these drugs are now included in the ESRD payment bundle and are no longer
                 billed separately when used to treat ESRD, we still refer them as “separately billable” to
                 distinguish this group of drugs from other types included in the payment bundle.
                 23
                    75 Fed. Reg. 49030, 49079 (Aug. 12, 2010).
                 24
                    The term “PPI for Prescription Drugs” refers to the Bureau of Labor Statistics’ (BLS)
                 PPI for Pharmaceuticals for Human Use (Prescription). This PPI reflects price changes
                 associated with the average mix of all prescription drugs in the overall economy.
                 According to CMS, reliability and timeliness of data publishing are factors for choosing
                 the PPI for Prescription Drugs as the price proxy. CMS also stated that the PPI for
                 Prescription Drugs includes an appropriate level of aggregation for use in the Medicare
                 market baskets (see footnote 26 for definition of market basket), including former Part D
                 drugs covered in the ESRD payment bundle, and reflects competitive pricing in efficient
                 markets. 75 Fed. Reg. 49030, 49152 (Aug. 12, 2010).

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                               5
   Table 1: Part B Payments for Top 11 Separately Billable Drugs
                                                                                       Percentage         Estimated
    Separately Billable Drugs                 MAP Amounts in        Per-Treatment
                                                                                         Update to    Per-Treatment
    (Part B)                                           2007        Reimbursement
                                                                                     Estimate 2011   Reimbursement
                                                                           in 2007
                                                                                          Amounts            in 2011
    Epoetin alfa                                $1,876,926,573             $51.08            7.0%             $54.65
    Paricalcitol                                  $322,849,348               $8.79          -3.2%              $8.50
    Darbepoetin alfa                              $167,935,970               $4.57          -9.0%              $4.16
    Iron sucrose                                  $166,219,339               $4.52           2.6%              $4.64
    Doxercalciferol                                 $76,901,723              $2.09          16.6%              $2.44
    Sodium ferric gluconate                         $68,086,707              $1.85          -0.2%              $1.85
    Alteplase recombinant                           $26,697,321              $0.73          16.9%              $0.85
    Levocarnitine                                    $5,026,446              $0.14         -22.5%              $0.11
    Vancomycin                                       $3,583,504              $0.10          -3.1%              $0.09
    Calcitriol                                       $3,125,613              $0.09         -26.3%              $0.06
    Daptomycin                                       $1,234,405              $0.03          30.1%              $0.04
        Total                                  $2,718,586,948*
   Source: 75 Fed. Reg. 49030, 49068, 49080 (Aug. 12, 2010).
   * Individual amounts do not add to total because of rounding.


                      Annual Updates to the ESRD Payment Bundle
                      Beginning in 2012, CMS was required to update the payment bundle
                      annually to reflect the changes over time in the prices of an appropriate
                      mix of goods and services used to provide ESRD care.25, 26 CMS uses
                      indexes published by BLS to measure the annual rate of price change in
                      each category (e.g., wages and salaries, pharmaceuticals, capital-related
                      costs).27 For example, CMS used PPI for Prescription Drugs as the price
                      proxy for measuring growth in ESRD drugs for the pharmaceutical
                      category (i.e., the “separately billable drugs” component). After applying
                      the adjustments for 2012, CMS set the base rate for the payment bundle at
                      $234.81 per treatment.28
                      Rebasing the ESRD Payment Bundle
                      MIPPA required GAO to report on, among other things, trends in the
                      utilization of ESRD drugs and to submit a report to Congress on the ESRD
                      payment bundle no later than March 1, 2013.29 GAO analyzed trends in
                      utilization from 2007 through 2011 and the implications of these trends for

                      25
                         The Act, § 1881(b)(14)(F)(i). 76 Fed. Reg. 70228, 70231–70232 (Nov. 10, 2011). 

                      26
                         The term “market basket” is used to refer to the mix of goods and services used to 

                      produce ESRD care. This term is also commonly used to denote the “input price index”

                      (i.e., cost categories, their respective weights, and price proxies combined) derived from

                      that market basket. The term “ESRDB market basket” in the final rule that implements 

                      the ESRD payment bundle refers to this input price index.

                      27
                         75 Fed. Reg. 49030, 49154–60 (Aug. 12, 2010). 

                      28
                         76 Fed. Reg. 70228, 70231 (Nov. 10, 2011). 

                      29
                         Section 153(d) of MIPPA.


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                      6
                 the ESRD bundled payment rate.30 GAO found that the utilization of
                 certain dialysis drugs in 2011 was lower than in 2007 and recommended
                 that Congress consider requiring CMS to rebase the ESRD bundled
                 payment rate as soon as possible and to rebase it periodically thereafter
                 using the most currently available data.
                 To reflect the findings in GAO’s report, the American Taxpayer Relief Act
                 of 2012 authorized CMS to make reductions to the ESRD bundled
                 payment rate on or after January 1, 2014.31 These reductions should
                 reflect the estimate of the change in utilization of the ESRD drugs between
                 2007 and 2012 and should take into account the most recently available
                 ASP data and price changes for ESRD drugs.32
                 Previous OIG Work
                 A May 2013 OIG report found that Medicare and its beneficiaries could
                 have saved $510 million for the ESAs epoetin alfa and darbepoetin alfa
                 and $19 million for certain iron supplements if the 2011 ESRD base rate
                 had been adjusted to reflect utilization of anemia management drugs
                 during 2011.33 We recommended that CMS adjust the base rate to realize
                 program savings associated with decreased utilization of ESAs and iron
                 supplements. CMS concurred with this recommendation.
                 Before the implementation of the ESRD payment bundle, OIG issued
                 several reports demonstrating that Medicare payments for certain
                 separately billable ESRD drugs were consistently higher than the reported
                 facility acquisition costs.34 A September 2010 report found that drug
                 acquisition costs in independent dialysis facilities and hospital-based


                 30
                    GAO, End-Stage Renal Disease: Reduction in Drug Utilization Suggests Bundled
                 Payment Is Too High (GAO-13-190R), December 2012.

                 31
                    Section 1881(b)(14)(I) of the Act, as added by section 632(a) of the American

                 Taxpayer Relief Act, P.L. 112-240. 

                 32
                    Part B claims dated on or after April 1, 2013, incur a 2-percent reduction in payment, 

                 in accordance with the Budget Control Act of 2011 and the American Taxpayer Relief 

                 Act of 2012 (see CMS Medicare FFS Provider e-News, Mandatory Payment Reductions

                 in the Medicare Fee-for-Service (FFS) Program – “Sequestration,” March 8, 2013). 

                 This mandatory payment reduction (also known as sequestration) is applied after the 

                 beneficiary’s coinsurance has been determined, meaning that the beneficiary’s portion of

                 the cost is not reduced. Under sequestration, the effective payment rate for most Part B 

                 drugs is 104.3 percent of the volume-weighted ASP.

                 33
                    OIG, Medicare and Beneficiaries Could Save Millions If Dialysis Payments Were
                 Adjusted for Anemia Management Drug Utilization (A-01-12-00522), May 2013.
                 34
                    For example, see OIG, Medicare Reimbursement for Existing End-Stage Renal Disease
                 Drugs (OEI-03-04-00120), May 2004; Medicare Reimbursement for New End Stage
                 Renal Disease Drugs (OEI-03-06-00200), March 2006; Medicare Reimbursement for
                 End Stage Renal Disease Drugs: Third Quarter 2006 (OEI-03-06-00590), June 2007;
                 and End Stage Renal Disease Drugs: Facility Acquisition Costs and Future Medicare
                 Payment Concerns (OEI-03-09-00280), September 2010.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                7
                 dialysis facilities were, in the aggregate, 10 percent and 7 percent below
                 the Medicare payment amounts, respectively.
                 In the September 2010 report, we also compared the changes in
                 independent dialysis facilities’ acquisition costs for 11 separately billable
                 ESRD drugs to changes in the PPI for Prescription Drugs.35 We found that
                 from 2003 to 2009, PPI data indicated that prescription drug prices had
                 increased, while the majority of acquisition costs for independent facilities
                 had decreased. In addition, we found that first-quarter 2009 Medicare
                 payments to independent dialysis facilities for epoetin alfa would have
                 been $113 million higher if CMS had based reimbursement on changes in
                 the PPI for Prescription Drugs instead of the ASP-based system in place at
                 that time. We recommended that CMS develop a more accurate method
                 for estimating changes in the prices of ESRD drugs included in the ESRD
                 bundled rate. CMS did not concur with our recommendation and moved
                 forward with using the PPI for Prescription Drugs as a price predictor.

                 METHODOLOGY
                 Data Collection
                 ESRD Drug Acquisition Cost Data for First Quarter 2012. In
                 December 2012, we sent online surveys to (1) 3 large chains of
                 independent dialysis facilities, (2) a random sample of 200 smaller
                 independent dialysis facilities not owned or managed by these chains, and
                 (3) all 200 hospital-based dialysis facilities not enrolled in the 340B
                 program.36 Several of the responding smaller independent dialysis
                 facilities owned multiple dialysis units and provided data for these
                 additional facilities. In total, we received responses from the 3 large chain
                 companies, 522 smaller independent dialysis facilities, and
                 125 hospital-based dialysis facilities. See Appendix B for a description of
                 the facilities included in our analysis.
                 The online surveys requested first-quarter 2012 acquisition cost
                 information for each of the 11 drugs under review. We selected these
                 11 drugs because they are included in the separately billable drugs
                 component of the ESRD base rate.37 Specifically, we asked each facility to

                 35
                    OIG, End Stage Renal Disease Drugs: Facility Acquisition Costs and Future Medicare
                 Payment Concerns (OEI-03-09-00280), September 2010.
                 36
                    The 340B program requires drug manufacturers to provide drugs to covered entities at
                 or below statutorily defined ceiling prices (42 U.S.C. § 256b). Therefore, we excluded
                 all 340B-covered facilities, which accounted for 44 percent of hospital-based dialysis
                 facilities in our sample.
                 37
                    The 11 drugs are alteplase recombinant, darbepoetin alfa (Aranesp), calcitriol,
                 daptomycin, doxercalciferol, epoetin alfa (Epogen), iron sucrose, levocarnitine,
                 paricalcitol, sodium ferric gluconate complex, and vancomycin HCl.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                            8
                 provide the total amount paid, the amount of rebates and discounts
                 received, the net amount paid, the number of units purchased, and the
                 average acquisition cost for each of the 11 drugs. We defined “average
                 acquisition cost” as the total amount paid (net of all rebates and discounts)
                 divided by the total number of units purchased during that quarter.
                 ESRD Drug Acquisition Cost Data for First Quarter 2009. We accessed
                 the dialysis facility acquisition cost data gathered in our September 2010
                 report. These data represent the volume-weighted average acquisition cost
                 paid in independent and hospital-based dialysis facilities for separately
                 billable ESRD drugs in the first quarter of 2009.38
                 ESRD Base Rate Amounts for the Drugs That Were Formerly Separately
                 Billable. For each of the 11 drugs included in the separately billable drugs
                 portion of the ESRD payment bundle, we calculated the per-unit payment
                 amount in the 2012 ESRD base rate. We calculated these figures using
                 information from the final rules that implemented the 2011 and 2012
                 ESRD base rates.39 See Appendix A for a detailed description of our
                 methodology to calculate the per-unit reimbursement amount for the drugs
                 included in the ESRD base rate.
                 Medicare ASP-Based Payment Amounts. We obtained first-quarter 2012
                 ASP-based Medicare payment amounts for the 11 drugs from CMS’s Web
                 site. These are the reimbursement amounts that CMS paid for Part B
                 drugs dispensed in a non-ESRD setting or for drugs provided by an ESRD
                 facility that chose to phase in the bundled payment method.
                 PPI for Prescription Drugs Data. We obtained from BLS’s Web site the
                 index base data from the PPI for Prescription Drugs for the first quarter of
                 2009 (the quarter used to collect acquisition cost data in our
                 September 2010 report) and the first quarter of 2012.
                 Data Analysis
                 Comparing Acquisition Cost to the ESRD Base Rate. We calculated the
                 overall volume-weighted average acquisition cost per unit (hereinafter
                 referred to as “average acquisition cost”) for each of the 11 drugs by
                 (1) totaling the amount paid, net of any discounts and rebates, among all

                 38
                    For our September 2010 report (End Stage Renal Disease Drugs: Facility Acquisition 

                 Costs and Future Medicare Payment Concerns, OEI-03-09-00280), we collected

                 acquisition cost data for 10 of the 11 drugs included in our current review; we did not 

                 collect acquisition cost data for daptomycin, but we instead collected cost data for iron

                 dextran. However, daptomycin was included in the ESRD payment bundle and iron

                 dextran was not. 

                 39
                    The final rule implementing the 2011 ESRD payment bundle can be found at 75 Fed.

                 Reg. 49030 (Aug. 12, 2010). A subsequent rule, found at 76 Fed. Reg. 70228

                 (Nov. 10, 2011), provides the percentage updates used to calculate the base rate for the 

                 payment bundle in 2012.


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                               9
                 independent and among all hospital-based dialysis facilities and
                 (2) dividing that by the total units purchased.40 In calculating these
                 figures, we identified any outliers among the costs reported by facilities
                 and removed them from our analysis. We defined an “outlier” as an
                 average acquisition cost reported by a facility that was not within
                 three standard deviations of the drug’s average cost.41, 42
                 For both facility types (i.e., independent and hospital-based), we
                 calculated the aggregate difference between the first-quarter 2012 average
                 acquisition costs and the total estimated amounts that would have been
                 spent for those units in the 2012 ESRD base rate for the 11 drugs.
                 To do so, we:
                       	 calculated the total net amount paid for the 11 drugs among the
                          facilities by summing the data reported by all respondents;
                       	 multiplied the total units purchased for each drug, as reported by
                          each facility, by its payment portion in the ESRD base rate to
                          calculate the total amount that facilities would have paid for all
                          these drugs if their acquisition cost equaled the ESRD base rate
                          amount; and
                       	 calculated the percentage difference between the total amount paid
                          for the 11 drugs, as reported by facilities, and the total that would
                          have been paid if the acquisition cost had been equal to the ESRD
                          base rate amount.
                 We calculated the percentage difference between each of the 11 drugs’
                 portion of the 2012 base rate and the first-quarter 2012 average acquisition
                 costs reported by independent and hospital-based dialysis facilities. We
                 further analyzed the data for independent facilities by calculating the
                 aggregate percentage difference between the ESRD base rate amount and
                 acquisition costs in (1) three large chains of independent dialysis facilities
                 and (2) the independent dialysis facilities not owned or managed by these
                 three large companies.

                 40
                    Some facilities provided the per-unit average acquisition costs, but did not provide the
                 total amounts paid or total units purchased for all drugs. Because these facilities did not
                 provide their totals, we did not include those totals in our calculations of average
                 acquisition costs.
                 41
                    Among the independent dialysis facilities not associated with the three large chains, we
                 identified and removed an average of 0.8 responses per drug because these responses met
                 the outlier criterion. Among hospital-based dialysis facilities, this number was 1.3. We
                 removed no more than four outliers for any single drug in either facility type.
                 42
                    There was significant variability in acquisition costs for sodium ferric gluconate at the
                 independent facilities not associated with the three large chains; therefore, we did not use
                 the same outlier criteria for this drug. Instead, we identified and excluded four responses
                 from smaller independent facilities with amounts that were more than 80 percent higher
                 or lower than the average acquisition cost for this drug.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                 10
                 Changes in Acquisition Costs. To determine whether actual per-unit drug
                 costs had increased, decreased, or remained the same, we compared
                 average facility acquisition costs in the first quarter of 2009 (obtained
                 from our September 2010 report)43 to those in the first quarter of 2012.
                 We determined the percentage change in the average costs for this period
                 for each drug. We did not collect cost data for 1 of the 11 drugs
                 (daptomycin) as part of our previous report, so this part of our analysis
                 included 10 of the drugs covered under the “separately billable drugs”
                 component of the ESRD base rate.
                 To determine whether the PPI for Prescription Drugs had been an accurate
                 predictor of price change for the 10 drugs, we calculated the rate at which
                 the PPI had increased between the first quarter of 2009 and the first
                 quarter of 2012. To determine whether acquisition costs had changed at
                 the same rate as PPI for Prescription Drugs, we multiplied this rate by
                 each drug’s first-quarter 2009 average acquisition cost to estimate
                 first-quarter 2012 prices. We compared this estimate to the actual average
                 acquisition costs of each drug for dialysis facilities in the first quarter of
                 2012.
                 Comparison of Payment Methodologies. We compared first-quarter
                 2012 ASP-based Medicare payment amounts for the 11 ESRD drugs to the
                 amounts paid under the ESRD base rate. To compare the two
                 methodologies, we first multiplied each drug’s units per treatment
                 included in the base rate of the ESRD payment bundle by the first-quarter
                 2012 ASP payment amounts. We summed these amounts to estimate the
                 total MAP per treatment based on the ASP payment amounts. We
                 compared this figure to the actual MAP per treatment in the 2012 ESRD
                 base rate. See Appendix A for more detail about determining the units and
                 MAP amounts per treatment.
                 Limitations
                 We did not evaluate the appropriateness of payments for the entire ESRD
                 payment bundle and the utilization figures used to calculate the base rate.
                 We also did not evaluate the medical necessity of the drugs used to treat
                 ESRD or the clinical appropriateness of the drugs’ use in dialysis facilities.
                 In addition, we did not account for individual facility adjustments to the
                 base rate, such as a low-volume adjustment. Instead, we focused only on
                 the unadjusted portion of the ESRD base rate that included drugs that were
                 previously billed separately. Data are based on self-reported information
                 from dialysis facilities and we did not verify this information. The
                 acquisition cost data provided in this report represent purchases for the

                 43
                    OIG, End Stage Renal Disease Drugs: Facility Acquisition Costs and Future
                 Medicare Payment Concerns (OEI-03-09-00280), September 2010.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                      11
                 drugs under review made by the majority of the dialysis facilities during
                 the first quarter of 2012. We did not project these figures to facilities not
                 included in our sample.
                 Standards
                 This study was conducted in accordance with the Quality Standards for
                 Inspection and Evaluation issued by the Council of the Inspectors General
                 on Integrity and Efficiency.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                       12
                 FINDINGS 

                 Independent dialysis facilities purchased ESRD drugs
                 for less than the drugs’ reimbursement amounts in the
                 ESRD base rate, but the acquisition costs for
                 hospital-based facilities exceeded reimbursement
                 amounts, in the aggregate
                 Consistent with the trend described in our prior ESRD drug pricing reports,
                 first-quarter 2012 aggregate acquisition costs among responding
                 independent dialysis facilities for the 11 ESRD drugs were below the
                 reimbursement portion of the ESRD base rate for these drugs. However, the
                 first-quarter 2012 aggregate acquisition costs for hospital-based dialysis
                 facilities were above the drugs’ reimbursement amounts in the ESRD base
                 rate, meaning that these facilities could not purchase the entire bundle of
                 drugs for less than they were reimbursed.

                 In the aggregate, independent dialysis facilities acquired the
                 11 drugs for an average of 9 percent less than the drugs’
                 reimbursement amount in the ESRD base rate
                 In the first quarter of 2012, responding independent dialysis facilities paid
                 between 5 and 54 percent below the per-unit reimbursement amounts in
                 the ESRD base rate for 7 of the 11 drugs, on average. Average acquisition
                 costs for the remaining 4 drugs were between 7 and 30 percent above their
                 ESRD base rate amounts. One of these four drugs, epoetin alfa,
                 represented over three-fourths of total spending ($337 million in the first
                 quarter of 2012) in responding independent dialysis facilities for the drugs
                 under review. Even with epoetin alfa’s higher cost, aggregate acquisition
                 costs for the responding independent facilities averaged 9 percent below
                 the amounts represented in the ESRD base rate. This is because many of
                 the other drugs’ costs were lower than reimbursement in the aggregate;
                 some of these drugs’ costs were substantially lower. See Appendix C for
                 the aggregate difference between the reimbursement amounts in the ESRD
                 base rate and average acquisition costs paid by large chains and smaller
                 independent facilities. See Table 2 for the percentage difference between
                 the amounts in the ESRD base rate and the average acquisition costs
                 reported by independent dialysis facilities for the first quarter of 2012.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                  13
                 Table 2: Medicare ESRD Base Rate Payment Amounts and Average
                 Acquisition Costs for Responding Independent Dialysis Facilities
                                                                                         First-Quarter         Percentage
                                                                     Per-Unit           2012 Average            Difference
                                                                 Amount in the            Acquisition       Between ESRD
                  Drug
                                                                   ESRD Base                  Cost for          Base Rate
                                                                         Rate            Independent          Amount and
                                                                                             Facilities       Facility Cost

                  Daptomycin, 1 mg                                          $0.42                 $0.54                  30%
                  Darbepoetin alfa, 1 mcg                                   $2.79                 $3.42                  22%
                  Alteplase recombinant, 1 mg                             $36.23                $42.30                   17%
                  Epoetin alfa, per 1,000 units                             $9.15                 $9.79                       7%
                  Calcitriol, 0.1 mcg                                       $0.37                 $0.35                   -5%
                  Levocarnitine, 1 g                                        $5.84                 $5.20                  -11%
                  Iron sucrose, 1 mg                                        $0.35                 $0.26                  -28%
                  Vancomycin HCl, 500 mg                                    $3.10                 $2.22                  -29%
                  Doxercalciferol, 1 mcg                                    $2.92                 $1.73                  -41%
                  Sodium ferric gluconate, 12.5 mg                          $4.43                 $2.41                  -46%
                  Paricalcitol, 1 mcg                                       $3.43                 $1.59                  -54%
                 Source: OIG analysis of first-quarter 2012 average acquisition costs among responding independent dialysis
                 facilities, 2013.


                 Aggregate spending on the 11 drugs in hospital-based dialysis
                 facilities was 5 percent higher, on average, than the drug’s
                 reimbursement amount in the ESRD base rate
                 In the first quarter of 2012, hospital-based dialysis facilities could not
                 purchase ESRD drugs for less than the amount reimbursed under the drug
                 component of the ESRD base rate, in the aggregate.44 Aggregate spending
                 in responding hospital-based dialysis facilities averaged 5 percent more
                 than the payment amount represented in the ESRD base rate.
                 Hospital-based facilities acquired 5 of the 11 drugs at prices averaging
                 between 4 and 30 percent higher than the drug’s per-unit amount reflected
                 in the ESRD base rate. Two of these drugs, epoetin alfa and darbepoetin
                 alfa, accounted for nearly two-thirds of total spending by the
                 hospital-based facilities to purchase the drugs under review.
                 The average acquisition costs for remaining six drugs were between 7 and
                 25 percent below the ESRD base rate amount. See Table 3 for each drug’s
                 average acquisition cost in responding hospital-based facilities, as
                 compared to the payment amounts in the ESRD base rate.



                 44
                   Although hospital-based facilities could not purchase individual ESRD drugs for less
                 than the drug component amount in the ESRD base rate, they may have been able to
                 provide ESRD treatment, including drugs, for less than the payment amount for entire
                 ESRD base rate.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                         14
                 Table 3: Medicare ESRD Base Rate Payment Amounts and Average                                                    

                 Acquisition Costs for Responding Hospital-Based Dialysis Facilities

                                                                                          First-Quarter           Percentage
                                                                      Per-Unit           2012 Average              Difference
                                                                  Amount in the            Acquisition         Between ESRD
                  Drug
                                                                    ESRD Base                  Cost for            Base Rate
                                                                          Rate          Hospital-Based           Amount and
                                                                                             Facilities*         Facility Cost

                  Daptomycin, 1 mg                                           $0.42                  $0.54                   30%
                  Darbepoetin alfa, 1 mcg                                    $2.79                  $3.25                   16%
                  Epoetin alfa, per 1,000 units                              $9.15                $10.48                    14%
                  Iron sucrose, 1 mg                                         $0.35                  $0.39                        9%
                  Levocarnitine, 1 g                                         $5.84                  $6.07                        4%
                  Calcitriol, 0.1 mcg                                        $0.37                  $0.34                    -7%
                  Alteplase recombinant, 1 mg                              $36.23                 $33.57                     -7%
                  Doxercalciferol, 1 mcg                                     $2.92                  $2.51                  -14%
                  Sodium ferric gluconate, 12.5 mg                           $4.43                  $3.61                  -18%
                  Vancomycin HCl, 500 mg                                     $3.10                  $2.51                  -19%
                  Paricalcitol, 1 mcg                                        $3.43                  $2.58                  -25%
                 Source: OIG analysis of first-quarter 2012 average acquisition costs among responding hospital-based dialysis
                 facilities, 2013.
                 * Acquisition cost data apply only to the responding facilities that purchased the drugs under review.



                 Dialysis facilities could not purchase epoetin alfa for less than
                 the drug’s per-unit ESRD base rate amount, on average
                 On average, epoetin alfa was purchased by independent dialysis facilities
                 at the rate of $9.79 per 1,000 units and by hospital-based facilities at the
                 rate of $10.48 per 1,000 units in the first quarter of 2012. As a result,
                 acquisition costs at independent and hospital-based facilities were 7 and
                 14 percent above the amount represented in the 2012 ESRD base rate for
                 the drug (i.e., $9.15 per 1,000 units), respectively. For the drugs under
                 review, epoetin alfa represented more than three-quarters of the costs in
                 responding independent facilities and more than a fifth of costs in
                 responding hospital-based facilities. We estimate that if Medicare had
                 reimbursed on the basis of the per-unit payment amount in the ESRD base
                 rate for epoetin alfa only, responding independent facilities would have
                 been reimbursed $22 million less than the amount they spent to purchase
                 the drug in the first quarter of 2012.
                 A few of the facilities expressed concern about price increases for epoetin
                 alfa. During the first quarter of 2012, only one of the responding smaller
                 independent dialysis facilities and none of the large chains could purchase
                 epoetin alfa for less than the amount reflected in the ESRD base rate, on
                 average. Less than 10 percent of responding hospital-based facilities that
                 purchased the drug could do so for less than the ESRD base rate amount.
                 However, spending in hospital-based facilities was concentrated on the

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                           15
                                other ESA, darbepoetin alfa. None of these facilities could acquire
                                darbepoetin alfa for less than the drug’s per-unit ESRD base rate amount,
                                on average.
                                Although the average facility acquisition costs for the
                                majority of drugs under review decreased in the past
                                3 years, costs for ESAs have increased
                                Changes in independent dialysis facilities’ acquisition costs between
                                first-quarter 2009 and first-quarter 2012 ranged from a decrease of
                                52 percent (paricalcitol) to an increase of 35 percent (darbepoetin alfa).
                                Similarly, acquisition costs in hospital-based facilities displayed a wide
                                range of changes, from a decrease of 37 percent (paricalcitol) to an
                                increase of 26 percent (darbepoetin alfa). Although the extent of the
                                percentage change varied by drug, the general trend of cost changes was
                                similar among the two types of dialysis facilities. Alteplase was the only
                                drug for which the acquisition cost increased in independent dialysis
                                facilities but decreased in hospital-based facilities during the period under
                                review. See Table 4 for the changes in average acquisition costs for the
                                drugs under review.

Table 4: Changes in Average Acquisition Costs for Responding Dialysis Facilities
                                                           Independent Facilities                                  Hospital-Based Facilities
                                                   Average             Average                               Average             Average
                                               Acquisition         Acquisition                           Acquisition         Acquisition
  Drug                                              Cost in             Cost in       Percentage              Cost in             Cost in    Percentage
                                              First-Quarter       First-Quarter        Difference       First-Quarter       First-Quarter     Difference
                                                      2009                2012                                  2009                2012
  Darbepoetin alfa, 1 mcg                              $2.54               $3.42               35%               $2.59               $3.25           26%
  Alteplase recombinant, 1 mg                         $33.40              $42.30               27%              $34.23              $33.57           -2%
  Epoetin alfa, per 1,000 units                        $8.37               $9.79               17%               $8.82              $10.48           19%
  Calcitriol, 0.1 mcg                                  $0.33               $0.35                6%               $0.30               $0.34           14%
  Levocarnitine, 1 g                                   $5.35               $5.20               -3%               $6.78               $6.07         -10%
  Iron sucrose, 1 mg                                   $0.31               $0.26              -18%               $0.39               $0.39           -1%
  Vancomycin HCl, 500 mg                               $2.70               $2.22              -18%               $2.71               $2.51           -7%
  Doxercalciferol, 1 mcg                               $2.94               $1.73              -41%               $3.39               $2.51         -26%
  Sodium ferric gluconate, 12.5 mg                     $4.40               $2.41              -45%               $4.78               $3.61         -24%
  Paricalcitol, 1 mcg                                  $3.29               $1.59              -52%               $4.10               $2.58         -37%
Source: OIG analysis of first-quarter 2009 and first-quarter 2012 average acquisition costs from responding dialysis facilities, 2013.




         Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                             16
                 Average acquisition costs at dialysis facilities have decreased
                 for the majority of drugs in 3 years
                 By the first quarter of 2012, average acquisition costs had decreased for
                 6 and 7 of the 10 drugs for which we had collected first-quarter 2009
                 acquisition cost data in responding independent and hospital-based
                 dialysis facilities, respectively.45 For responding independent dialysis
                 facilities, the decrease in average acquisition costs ranged from 3 to
                 52 percent; for responding hospital-based facilities, the decrease ranged
                 from 1 to 37 percent (see Table 4).
                 Average acquisition costs at dialysis facilities have increased
                 for the ESAs epoetin alfa and darbepoetin alfa by at least
                 17 percent in 3 years
                 Between the first quarter of 2009 and the first quarter of 2012, average
                 acquisition costs for epoetin alfa increased by 17 percent and 19 percent in
                 the responding independent and hospital-based dialysis facilities,
                 respectively. As a result, in the first quarter of 2012, independent dialysis
                 facilities spent $1.42 more and hospital-based facilities $1.66 more to
                 purchase 1,000 units of the drug, on average, than they did in the first
                 quarter of 2009 (see Table 4).
                 The other ESA included in the bundle, darbepoetin alfa, also experienced
                 similar price increases during this time.46 The average acquisition cost for
                 darbepoetin alfa increased by 35 percent and 26 percent for responding
                 independent and hospital-based dialysis facilities, respectively. In
                 referring to the price increase for darbepoetin alfa, one hospital-based
                 facility noted that the drug’s acquisition cost had continued to climb since
                 the first quarter of 2012 and that it anticipates an additional increase in
                 2013.
                 The PPI for Prescription Drugs was not an accurate
                 predictor of cost changes between 2009 and 2012 for
                 most drugs under review
                 The PPI for Prescription Drugs overestimated first-quarter 2012
                 acquisition costs for nearly all of the 10 drugs under review. According to
                 the PPI data, prescription drug prices increased by 25 percent between the
                 first quarter of 2009 and the first quarter of 2012, even though acquisition
                 costs for the majority of the drugs under review decreased. As a result, the
                 PPI price estimates were, on average, 54 percent and 37 percent higher


                 45
                    We had not collected first-quarter 2009 acquisition cost data for daptomycin in our

                 previous report. 

                 46
                    Epoetin alfa and darbepoetin alfa are produced by the same manufacturer. 


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                 17
                 than first-quarter 2012 average acquisition costs in independent and
                 hospital-based facilities, respectively.
                 The PPI for Prescription Drugs overestimated the average acquisition cost
                 for 8 of the 10 drugs in independent dialysis facilities and 9 of the
                 10 drugs in hospital-based dialysis facilities. As was the case in our
                 previous report, the PPI was not an accurate predictor of cost for epoetin
                 alfa. Between the first quarter of 2009 and the first quarter of 2012,
                 average acquisition costs for this drug increased by 17 percent in
                 independent dialysis facilities and 19 percent in hospital-based facilities,
                 whereas the PPI increased by 25 percent. If the PPI for Prescription Drugs
                 had been an accurate predictor of changes in acquisition cost, independent
                 facilities would have paid $10.43 for 1,000 units of the drug instead of the
                 $9.79 actually paid (7-percent difference) and hospital-based facilities
                 would have paid $10.99 for 1,000 units instead of the $10.48 actually paid
                 (5-percent difference).
                 The PPI for Prescription Drugs underestimated the average acquisition
                 cost for 2 of the 10 drugs in independent dialysis facilities and just 1 of the
                 drugs in hospital-based facilities. The PPI underestimated the amounts
                 paid by both types of facilities to acquire darbepoetin alfa. Independent
                 facilities paid on average $3.42 in the first quarter of 2012 to purchase
                 1 mcg of darbepoetin alfa; using the PPI rate, these facilities would have
                 paid $3.16. Hospital-based facilities paid on average $3.25 for 1 mcg of
                 darbepoetin alfa, which is very close to the PPI-based estimate of $3.23.
                 If ASP-based reimbursement had remained in effect
                 for the first quarter of 2012, payment amounts for the
                 bundle of ESRD drugs would have differed by less
                 than a dollar per treatment
                 Overall, the ESRD base rate paid $72.23 per treatment in 2012 for
                 11 ESRD drugs that, prior to 2011, were separately billable and paid on
                 the basis of 106 percent of each drug’s ASP. We estimate that if the units
                 per treatment remained consistent since CMS calculated the initial ESRD
                 base rate (using 2007 claims data), the ESRD base rate reimbursement
                 would have been slightly higher ($0.83 more) than per-treatment payment
                 based on first-quarter 2012 ASP amounts for the 11 drugs. This is true
                 even after accounting for the standardization, outlier, and budget neutrality
                 adjustments to the base rate. See Table 5 for the price differences in
                 payment methodologies.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                    18
                 Table 5: Comparison of the Former and Current ESRD Payment
                 Methodologies
                                                                                      Estimated Cost
                                                                                                                  Medicare
                                                                     Units per         per Treatment
                                                                                                           Reimbursement
                                                              Treatment in the              Based on
                   Drug                                                                                    per Treatment in
                                                                   ESRD Base            First-Quarter
                                                                                                            the 2012 ESRD
                                                                         Rate               2012 ASP
                                                                                                                 Base Rate
                                                                                             Payment

                   Daptomycin, 1 mg                                         0.10                 $0.05                  $0.04
                   Darbepoetin alfa, 1 mcg                                  1.39                 $4.46                  $3.88
                   Alteplase recombinant, 1 mg                              0.02                 $0.91                  $0.79
                   Epoetin alfa, per 1,000 units                            5.57                $53.57                $51.00
                   Calcitriol, 0.1 mcg                                      0.16                 $0.17                  $0.06
                   Levocarnitine, 1 g                                       0.02                 $0.16                  $0.10
                   Vancomycin HCl, 500 mg                                   0.03                 $0.08                  $0.09
                   Iron sucrose, 1 mg                                      12.23                 $3.93                  $4.33
                   Doxercalciferol, 1 mcg                                   0.78                 $1.11                  $2.28
                   Sodium ferric gluconate, 12.5 mg                         0.39                 $1.85                  $1.73
                   Paricalcitol, 1 mcg                                      2.32                 $5.11                  $7.94
                      Total                                                                    $71.41*               $72.23*
                 Source: OIG analysis, 75 Fed. Reg. 49030, 49068, 49080 (Aug.12, 2010), and CMS first-quarter 2012 payment
                 amounts, 2013.
                 * Individual amounts do not add to total because of rounding.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                   19
                 CONCLUSION AND RECOMMENDATIONS

                 On January 1, 2011, Medicare payment for the treatment of ESRD
                 changed dramatically to a system that bundles all costs related to ESRD
                 care into a single per-treatment payment amount. The ESRD payment
                 bundle sought to promote equitable payment and access to services by
                 targeting greater payments to ESRD facilities that treat more costly
                 patients and to reduce the incentives to overuse separately billable drugs.
                 To comply with statutory requirements, CMS developed the ESRD base
                 rate of the payment bundle using claims data from 2007. However, drug
                 utilization during 2007 did not fully reflect the impact of new safety data,
                 changes to Medicare policies and procedures that address overutilization
                 of ESAs and quality of care, and incentives provided under the payment
                 bundle to furnish services more efficiently. A May 2013 OIG report found
                 a decline in use of certain ESRD drugs since 2007, and CMS concurred
                 with the report’s recommendation to adjust the ESRD bundled base rate to
                 realize program savings associated with decreased utilization.
                 Furthermore, Federal law requires CMS to reduce the ESRD payment
                 bundle’s base rate for 2014 to reflect changes in the utilization and prices
                 of ESRD drugs and to take into account the most recently available data
                 on drug sales. Our findings show that dialysis facilities’ acquisition costs
                 for the majority of the ESRD drugs have also decreased. However, since
                 our last report on ESRD drug pricing, the costs for ESAs (drugs
                 representing the majority of total drug costs for facilities) have steadily
                 increased. This means that although dialysis facilities are using ESAs to a
                 lesser extent, any savings may potentially be offset by the drugs’ cost
                 increase. However, without taking both the payment and utilization
                 aspects into account, we are unable to estimate the extent to which this
                 may be occurring.
                 Even with the cost increase for ESAs, independent dialysis facilities could
                 still acquire ESRD drugs for less than Medicare reimbursement, in the
                 aggregate. However, our findings also indicate that any reductions to the
                 ESRD base rate for the bundle may potentially harm hospital-based
                 dialysis facilities, as such facilities experienced difficulties purchasing
                 drugs for less than reimbursement, in the aggregate, even prior to any
                 reduction that may result from the American Taxpayer Relief Act. When
                 making adjustments to the ESRD base rate, CMS should carefully
                 consider the implications it may have on hospital-based dialysis facilities.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                  20
                 Therefore, we recommend that CMS:
                 Rebase the ESRD base rate to reflect current trends in drug
                 acquisition costs, as required by law
                 The base rate for the ESRD payment bundle should more accurately
                 reflect the amounts paid by facilities to purchase drugs used to treat
                 ESRD. Overall, there has been a downward trend in the average prices
                 that facilities pay to acquire ESRD drugs, with the exception of the ESAs.
                 ESAs represent the majority of dialysis facility costs for drugs used in
                 treating ESRD. However, the amounts in the bundled base rate do not
                 reflect pricing decreases or increases. If the payment amounts do not
                 adequately reflect acquisition costs, it may influence facility decisions on
                 which drugs to purchase. This gap between acquisition costs and payment
                 amounts may potentially cost the program additional dollars or may result
                 in certain facilities’ paying more to acquire the drugs than the amount
                 provided under the ESRD base rate.
                 Beginning in 2014, CMS is required to rebase the ESRD base rate for the
                 payment bundle using updated ASP data for the drugs under review. We
                 recommend that CMS complete this rebasing and ensure that it takes into
                 account the current trends in drug acquisition costs and utilization when
                 doing so.
                 Distinguish payments in the ESRD base rate between
                 independent and hospital-based dialysis facilities
                 When CMS rebases the ESRD base rate, it should adjust reimbursement
                 for independent dialysis facilities and hospital-based dialysis facilities to
                 account for the differences in their acquisition costs. If necessary, CMS
                 should seek legislative authorization to do so. In the aggregate,
                 independent facilities could purchase the bundle of ESRD drugs for less
                 than the ESRD base rate; however, responding hospital-based facilities
                 could not. Our prior reports have shown that hospital-based facilities have
                 typically paid more than independent facilities to purchase ESRD drugs,
                 and this current report shows that this disparity has grown. Although we
                 did not take into account additional adjustments that may have boosted
                 reimbursement to an individual facility, such as a low-volume adjustment,
                 it appears that hospital-based facilities have difficulties purchasing drugs
                 at prices that would be financially advantageous, in the aggregate. In fact,
                 in some cases, it appears that hospital-based facilities are unable to recoup
                 the total amount paid to purchase ESRD drugs. CMS should ensure that
                 the ESRD base rate covers the costs paid by hospital-based facilities to
                 purchase the drugs used to treat ESRD, and the agency could consider
                 using an add-on adjustment for this facility type.


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                   21
                 Consider updating the ESRD payment bundle using a factor
                 that takes into account drug acquisition costs
                 CMS decided to use the PPI for Prescription Drugs (a measure that reflects
                 price changes associated with the average mix of all the prescription drugs
                 sold in pharmacies) as the proxy for drug price changes in the ESRD
                 payment bundle. Our September 2010 report found that the average
                 acquisition cost for the majority of drugs purchased by dialysis facilities
                 had decreased, while the PPI substantially increased. We recommended
                 that CMS develop a more accurate method for estimating changes in the
                 prices of ESRD drugs. CMS stated that it did not concur with the
                 recommendation because the downward trajectory of average acquisition
                 costs was influenced largely by payment changes and, as a result, was not
                 suitable for inferring future price trends. However, we found in our
                 current report that the PPI has continually increased at a time when costs
                 for most of the drugs purchased by facilities have decreased. We therefore
                 continue to believe that CMS should use a more accurate cost predictor
                 when updating the ESRD payment bundle.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                22
                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                 RESPONSE

                 In its comments on our draft report, CMS concurred with one of our three
                 recommendations. CMS did not state whether or not it concurred with one
                 recommendation and did not concur with another recommendation.
                 CMS concurred with our third recommendation, to consider updating the
                 ESRD bundled rate using a factor that takes into account drug acquisition
                 costs. CMS said it will consider our findings regarding the accuracy of the
                 PPI for Prescription Drugs in its continual evaluation of the ESRD market
                 basket, particularly when rebasing and revising the market basket index.
                 CMS also stated that it will evaluate alternative data sources to determine
                 whether it can improve the relevance of the ESRD drug price proxy (while
                 maintaining a price proxy that is reliable, timely, and available).
                 In commenting on our first recommendation, to rebase the ESRD base rate
                 to reflect current trends in drug acquisition costs, as required by law, CMS
                 did not state whether it concurred. But CMS did say that our report will
                 assist the agency in determining price adjustments to the ESRD payment
                 bundle in the future. CMS responded that it has implemented section
                 632(a) of the American Taxpayer Relief Act of 2012, which required a
                 reduction in the ESRD payment bundle. CMS stated that, as required by
                 law, it took into account the most recently available ASP data, as well as
                 drug price changes reflected in the ESRD market basket percentage
                 increase factor when determining the reduction amount. CMS also noted
                 that the statute did not specify to take into account drug acquisition costs.
                 However, for the purposes of this report, we interpreted drug acquisition
                 costs and drug sales prices to be essentially the same. We ask that in its
                 final management decision, CMS more clearly indicate the distinction
                 between drug acquisition and sales prices and indicate whether it concurs
                 with our recommendation and what steps, if any, it plans to take to
                 implement it.
                 Finally, CMS did not concur with our second recommendation, to
                 distinguish payments in the ESRD base rate between independent and
                 hospital-based dialysis facilities. CMS stated that section
                 1881(b)(14)(A)(i) of the Act required the implementation of a
                 single-payment system for providers of dialysis services. CMS also noted
                 that the ESRD payment bundle includes several payment adjusters, as well
                 as an outlier policy to cover more expensive dialysis treatments and
                 facility-level adjustments to enhance payments for smaller facilities. CMS
                 stated that it has the statutory authority to review the appropriateness of all


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                    23
                 of the payment adjusters as a whole, no later than January 2016. CMS
                 said it will then consider appropriate modifications to the payment system
                 to improve the accuracy of Medicare's payment for renal dialysis services,
                 including drugs and biologicals. Although the additional payment
                 adjusters currently included in the ESRD payment bundle may increase
                 reimbursement enough to cover the costs of acquiring ESRD drugs at
                 hospital-based facilities, we believe that distinguishing payment between
                 the different facility types would help to ensure that hospital-based
                 facilities are paid appropriately at this time.
                 We did not make any changes to the report based on CMS’s comments.
                 The full text of CMS’s comments is provided in Appendix D.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                24
                 APPENDIX A

                 Detailed Methodology for Calculating the Individual-Drug
                 Payment Portions of the ESRD Base Rate
                 In calculating the individual-drug payment portions of the ESRD base
                 rate, we followed CMS’s methodology for developing the ESRD base rate
                 in 2011, the first year the rate was implemented. CMS developed the
                 2011 base rate using 2007 Medicare allowable payment amounts for each
                 service included in the ESRD payment bundle, as well as the number of
                 2007 dialysis treatments. To calculate the unadjusted per-treatment base
                 rate, CMS divided the sum of the Medicare allowable payments for each
                 service by the number of dialysis treatments.
                 Eleven separately billable ESRD drugs accounted for 99.8 percent of total
                 Part B spending on separately billable ESRD drugs in 2007. CMS
                 selected these 11 drugs as the basis for the pharmaceutical category
                 (i.e., the “separately billable drugs” component) of the ESRD payment
                 bundle. Using data provided in 75 Fed. Reg. 49030, 49068
                 (Aug. 12, 2010), the rule that implements the ESRD payment bundle, we
                 calculated the average unadjusted Medicare allowable payment amount
                 per treatment for each of the 11 drugs. See Table A-1 for this information.
                 Table A-1: Medicare Allowable Payments per Treatment in 2007

                                                                                                     Average
                                                              Total 2007        Total Dialysis      Medicare
                   Part B Drug                                 Medicare         Treatments in      Allowable
                                                              Allowable                  2007    Payment per
                                                              Payments                             Treatment

                   Epoetin alfa                          $1,876,926,573             36,747,662        $51.08
                   Paricalcitol                            $322,849,348             36,747,662         $8.79
                   Darbepoetin alfa                        $167,935,970             36,747,662         $4.57
                   Iron sucrose                            $166,219,339             36,747,662         $4.52
                   Doxercalciferol                          $76,901,723             36,747,662         $2.09
                   Sodium ferric gluconate                  $68,086,707             36,747,662         $1.85
                   Alteplase recombinant                    $26,697,321             36,747,662         $0.73
                   Levocarnitine                              $5,026,446            36,747,662         $0.14
                   Vancomycin HCl                             $3,583,504            36,747,662         $0.10
                   Calcitriol                                 $3,125,613            36,747,662         $0.09

                   Daptomycin                                 $1,234,405            36,747,662         $0.03
                 Source: OIG analysis, 75 Fed. Reg. 49030, 49068 (Aug. 12, 2010).

                 To arrive at the base rate, CMS then adjusted the 2007 Medicare allowable
                 payment amounts for each service included in the ESRD payment bundle
                 to reflect estimated prices in 2011. These adjustments were based on the


Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                     25
                      latest available ASP data, which represented the second quarter of 2010.
                      CMS updated these prices using the PPI for Prescription Drugs.
                      Section 1881(b)(14)(A)(ii) of the Act also required the ESRD payment
                      bundle to be 98 percent budget neutral in 2011. This means that the
                      estimated total payments for 2011 under the ESRD payment bundle must
                      equal 98 percent of the estimated total payments for dialysis services that
                      would have been made if the bundled rate had not been implemented.
                      CMS applied the following adjustments to the base rate to comply with
                      this requirement:
                         	 94.07-percent adjustment to ensure that the total projected ESRD
                            payments were equal to estimated total payments for dialysis
                            services that would have been made if the bundled payment system
                            had not been implemented,
                         	 99-percent adjustment to ensure that the outlier policy was budget
                            neutral, and
                         	 98-percent adjustment to account for the budget neutrality
                            requirement.
                      We then calculated the Medicare allowable payment per treatment for
                      each of the 11 drugs included in the base rate by applying these
                      adjustments (see Table A-2).
   Table A-2: Medicare Allowable Payments per Treatment in the 2011 Base Rate
                                                   Adjustments Applied to the Medicare Allowable Payment
                               Average         Multiplied
                                                      by:                                                             Equals:
                              Medicare                                                           Multiplied
                                             Adjustment          Multiplied by:    Multiplied                 Reimbursement
    Part B Drug               Allowable                                                         by: Budget
                                               to Reflect      Standardization    by: Outlier                  Per Treatment
                           Payment per                                                           Neutrality
                                              Estimated            Adjustment     Adjustment                     in 2011 Base
                           Treatment in                                                         Adjustment
                                             2011 Prices                                                                 Rate
                                   2007
    Epoetin alfa                  $51.08              1.07              0.9407           0.99          0.98             $49.88
    Paricalcitol                   $8.79              0.97              0.9407           0.99          0.98              $7.76
    Darbepoetin alfa               $4.57              0.91              0.9407           0.99          0.98              $3.80
    Iron sucrose                   $4.52              1.03              0.9407           0.99          0.98              $4.24
    Doxercalciferol                $2.09              1.17              0.9407           0.99          0.98              $2.23
    Sodium ferric
                                   $1.85              1.00              0.9407           0.99          0.98              $1.69
    gluconate
    Alteplase
                                   $0.73              1.17              0.9407           0.99          0.98              $0.78
    recombinant
    Levocarnitine                  $0.14              0.78              0.9407           0.99          0.98              $0.10
    Vancomycin HCl                 $0.10              0.97              0.9407           0.99          0.98              $0.09
    Calcitriol                     $0.09              0.74              0.9407           0.99          0.98              $0.06
    Daptomycin                     $0.03              1.30              0.9407           0.99          0.98              $0.04
   Source: OIG analysis, 75 Fed. Reg. 49030, 49080–2 (Aug. 12, 2010).




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                         26
                  Dialysis facilities report the appropriate Healthcare Common Procedure
                  Coding System (HCPCS) code on their Medicare claims and bill the units
                  of service in multiples of the units shown in the HCPCS narrative
                  description. This is also the unit that Medicare used as the basis for
                  payment for separately billable drugs prior to the ESRD payment bundle.47
                  To calculate the amount reflected in the ESRD base rate, we divided the
                  2007 average Medicare allowable payment per treatment by the average
                  2007 payment for a single HCPCS unit (i.e., billing unit) to determine the
                  number of billing units reflected in the base rate (see Table A-3).
            Table A-3: Billing Units Reflected in the ESRD Base Rate for Each Drug
                                                                                  Average        Divided by:
                                                                                                    Average             Equals:
                                                                                 Medicare
                                                                                                       2007          Number of
                                                                                Allowable
             Part B Drug                         HCPCS                                             Payment               Billing
                                                              Billing Unit       Payment
                                                  Code                                           Amount for         Units in the
                                                                                       per
                                                                                                    a Billing       ESRD Base
                                                                                Treatment
                                                                                                        Unit               Rate
                                                                                   in 2007
             Epoetin alfa                          J0886       1,000 units           $51.08             $9.17              5.57
             Paricalcitol                          J2501            1 mcg             $8.79             $3.79              2.32
             Darbepoetin alfa                      J0882            1 mcg             $4.57             $3.29              1.39
             Iron sucrose                          J1756             1 mg             $4.52             $0.37             12.23
             Doxercalciferol                       J1270            1 mcg             $2.09             $2.68              0.78

             Sodium ferric gluconate               J2916          12.5 mg             $1.85             $4.76              0.39

             Alteplase recombinant                 J2997             1 mg             $0.73           $33.21               0.02
             Levocarnitine                         J1955               1g             $0.14             $8.07              0.02
             Vancomycin HCl                        J3370           500 mg             $0.10             $3.43              0.03
             Calcitriol                            J0636          0.1 mcg             $0.09             $0.54              0.16
             Daptomycin                            J0878             1 mg             $0.03             $0.34              0.10
            Source: OIG analysis, 75 Fed. Reg. 49030, 49080–2 (Aug. 12, 2010), CMS ASP Drug Pricing Files (2007).



                  We then updated the 2011 per-treatment reimbursement amounts to reflect
                  the amounts in the 2012 ESRD base rate. To calculate the reimbursement
                  per treatment in the 2012 ESRD base rate, we multiplied the 2011
                  per-treatment amounts by 2.1 percent to adjust for the market basket
                  increases and then by 0.1520 percent for the wage-index budget neutrality
                  adjustment. We then divided the 2012 reimbursement per treatment by the
                  billing units in the ESRD base rate to calculate reimbursement per billing
                  unit in 2012. See Table A-4 for the per-treatment reimbursement
                  amounts.




                  47
                    CMS, 2007 ASP Drug Pricing Files. Accessed at
                  http://www.cms.gov/Medicare/Medicare-Fee-for-Service-Part-B-
                  Drugs/McrPartBDrugAvgSalesPrice/01b_2007aspfiles.html on June 20, 2013.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                    27
Table A-4: Reimbursement per Billing Unit in the 2012 Base Rate
                                                     Adjustments Applied 2011
                                                        Base Rate for 2012
                                                                     Multiplied by:              Equals:      Divided by:
                              Reimbursement           Multiplied                                                                         Equals:
                                                                      Wage-Index         Reimbursement         Number of
 Part B Drug                   Per Treatment         by: Market                                                                Reimbursement
                                                                           Budget         Per Treatment            Billing
                                 in 2011 Base            Basket                                                                 per Billing Unit
                                                                        Neutrality          in 2012 Base      Units in the
                                         Rate        Adjustment                                                                         in 2012*
                                                                      Adjustment                    Rate       Base Rate
 Epoetin alfa                            $49.88             1.021          1.001520                $51.00              5.57                  $9.15

 Paricalcitol                             $7.76             1.021          1.001520                  $7.94             2.32                  $3.43
 Darbepoetin alfa                         $3.80             1.021          1.001520                  $3.88             1.39                  $2.79
 Iron sucrose                             $4.24             1.021          1.001520                  $4.33           12.23                   $0.35

 Doxercalciferol                          $2.23             1.021          1.001520                  $2.28             0.78                  $2.92
 Sodium ferric
                                          $1.69             1.021          1.001520                  $1.73             0.39                  $4.43
 gluconate

 Alteplase recombinant                    $0.78             1.021          1.001520                  $0.79             0.02                 $36.23
 Levocarnitine                            $0.10             1.021          1.001520                  $0.10             0.02                  $5.84

 Vancomycin HCl                           $0.09             1.021          1.001520                  $0.09             0.03                     $3.10
 Calcitriol                               $0.06             1.021          1.001520                  $0.06             0.16                     $0.37

 Daptomycin                               $0.04             1.021          1.001520                  $0.04             0.10                     $0.42
Source: OIG analysis, 75 Fed. Reg. 49030, 49080–82 (Aug. 12, 2010), 76 Fed. Reg. 70228, 70231 (Nov. 10, 2011), and CMS ASP Drug Pricing

Files (2007). 

*Amounts may not equal exact reimbursement because of rounding. 





        Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                         28
                 APPENDIX B

                 Detailed Methodology for Selecting Dialysis Facilities
                 Large Chains of Independent Dialysis Facilities. We classified three
                 chains of independent dialysis facilities (Davita, Fresenius, and Dialysis
                 Clinic Inc.) as large chains. As of August 2012, these 3 companies owned
                 3,349 (64 percent) of the 5,219 independent dialysis facilities listed in
                 CMS’s Certification and Survey Provider Enhanced Reports database. We
                 contacted representatives from these three companies and sent them the
                 online survey on acquisition costs. All three companies responded to our
                 request in January 2013.
                 Smaller Independent Dialysis Facilities. To ensure that smaller
                 independent facilities were represented, we sent surveys to a random
                 sample of 200 of the 1,870 remaining independent dialysis facilities not
                 owned or managed by one of the 3 large chains. Of these, 177 replied
                 (89 percent); however, we excluded 50 facilities because they had been
                 subsequently acquired by one of the 3 large chains and their acquisition
                 costs were thus included as part of the larger companies’ responses. We
                 excluded an additional two facilities because they indicated on the survey
                 that they qualified for 340B pricing.48 Therefore, we received complete
                 data from 125 smaller independent dialysis facilities. Several of the
                 responding facilities owned multiple dialysis units and provided cost
                 information for 397 additional facilities (for a total of 522 respondents not
                 affiliated with the 3 large independent dialysis companies).
                 Hospital-Based Dialysis Facilities. As of August 2012, there were
                 356 hospital-based dialysis facilities. We identified and excluded
                 156 hospitals that qualified for 340B pricing.49 In December 2012, we
                 sent online surveys requesting acquisition cost data to the remaining
                 200 hospital-based dialysis facilities. These were the same requests for
                 first-quarter 2012 data that we sent to the independent dialysis facilities.




                 48
                    We excluded these facilities because the 340B program requires drug manufacturers to
                 provide drugs to 340B-covered entities at or below statutorily defined ceiling prices.
                 42 U.S.C. § 256b.
                 49
                    To identify 340B-covered facilities, we downloaded the covered entities file from the
                 Health Resources and Services Administration’s Web site on November 14, 2012, and
                 identified those covered during the first quarter of 2012 (i.e., the quarter for which we
                 requested cost data).

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                               29
                 We received responses from 177 hospital-based dialysis facilities
                 (89 percent), but could not use data provided by 53 of these facilities.50 Of
                 the remaining 124 respondents, 1 hospital provided data on an additional
                 hospital, resulting in valid data representing 125 hospital-based dialysis
                 facilities.




                 50
                    We excluded these 53 facilities for the following reasons: 9 reported that they had
                 either discontinued outpatient dialysis services or provided primarily inpatient dialysis;
                 9 had been acquired by 1 of the large chains; 33 responded that they qualified for 340B
                 pricing; and 2 received Department of Veterans Affairs pricing, which is heavily
                 discounted compared to prices in the marketplace.

Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                    30
                 APPENDIX C

                 Difference Between Medicare Reimbursement and Costs Paid
                 by Large Chain and Smaller Independent Dialysis Facilities
                 In the aggregate, first-quarter 2012 acquisition costs among the three large
                 chains averaged 8 percent below the drugs’ respective reimbursement
                 amounts in the ESRD base rate. In the first quarter of 2012, these chains
                 purchased 7 of the 11 drugs under review for less than the drugs’
                 respective reimbursement amounts in the ESRD base rate. Average
                 acquisition costs ranged between 4 and 54 percent less than the amount in
                 the ESRD base rate. Costs for the remaining 4 of the 11 drugs exceeded
                 reimbursement by 7 to 30 percent.
                 Among responding independent dialysis facilities that were not owned or
                 managed by these three large chains, acquisition costs averaged 11 percent
                 below the drugs’ respective reimbursement amounts in the ESRD base
                 rate, in the aggregate. In the first quarter of 2012, these facilities
                 purchased the same seven drugs for less than the ESRD base rate
                 reimbursement amounts; the facilities’ average acquisition costs ranged
                 from 8 and 49 percent below the ESRD base rate for these seven drugs.
                 Costs for the remaining 4 of the 11 drugs exceeded reimbursement by 9 to
                 32 percent. See Table C-1 for the differences in average acquisition costs
                 for the two types of independent dialysis facilities.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                 31
                Table C-1: ESRD Base Rate Payment Amounts and Average Acquisition
                Costs for Large Chains and Smaller Independent Dialysis Facilities
                                                                                                            First-Quarter 2012
                                                                   Per-Unit             First-Quarter                  Average
                                                               Amount in the           2012 Average         Acquisition Costs
                  Drug                                                                   Acquisition
                                                                 ESRD Base                                          for Smaller
                                                                       Rate           Costs for Large             Independent
                                                                                              Chains                 Facilities*

                  Alteplase recombinant, 1 mg                            $36.23                  $41.89                      $44.51
                  Calcitriol, 0.1 mcg                                     $0.37                   $0.35                       $0.32
                  Daptomycin, 1 mg                                        $0.42                   $0.54                       $0.55
                  Darbepoetin alfa, 1 mcg                                 $2.79                   $3.46                       $3.33
                  Doxercalciferol, 1 mcg                                  $2.92                   $1.73                       $1.78
                  Epoetin alfa, per 1,000 units                           $9.15                   $9.78                       $9.96
                  Iron sucrose, 1 mg                                      $0.35                   $0.26                       $0.25
                  Levocarnitine, 1 g                                      $5.84                   $5.15                       $5.39
                  Paricalcitol, 1 mcg                                     $3.43                   $1.56                       $2.03
                  Sodium ferric gluconate, 12.5 mg                        $4.43                   $2.54                       $2.26
                  Vancomycin HCl, 500 mg                                  $3.10                   $2.18                       $2.54

                Source: OIG analysis of first-quarter 2012 average acquisition costs among responding independent dialysis
                facilities, 2013.
                * Acquisition cost data apply only to the responding facilities that purchased the drugs under review.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                       32
                 APPENDIX D
                 Agency Comments



      \4­
       /~'~
                   DEPARTMENT OF HEALTii & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                            Administrator
                                                                                            Washington. DC 20201




                  DATE:            JAN - 8 2014
                  TO: 	          Daniel R. Levinson 

                                 Inspect01: General 

                                                     /S/
                  FROM: 	       Mar'tlyn Taxrl3.!mer 

                                Administrator 


                  SUBJECT: 	 Office oflnspester General Draft Report: "Update: Medicare Payments for End
                             Stage Renal Disease Drugs," (OEI-03-12-00550)

                  The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                  comment on the above subject report. The objectives of this review were to: I) compare first­
                  quarter-2012 facility acquisition costs for selected End Stage Renal Disease (ESRD) drugs to the
                  amounts that Medicare Part B paid for these drugs under the new ESRD bundled rate; 2)
                  determine how facility acquisition costs for selected ESRD drugs have changed in relation to
                  inflation, from the first quarter of2009 to the first quarter of2012 and; 3) compare the average
                  sale price (ASP) based reimbursement amounts for selected ESRD drugs to the amounts paid
                  under the new ESRD bundled rate.

                  Our response to each recommendation follows.

                  Recommendation:

                  Rebase the ESRD base rate to reflect current trends in drug acquisition costs, as required by law.

                  Response:

                  The CMS implemented section 632(a) of the American Taxpayer Relief Act of2012 (ATRA),
                  which requires the Secretary to reduce the single payment amount for renal dialysis services to
                  reflect the Secretary's estimate of the change in the utilization of ESRD-related drugs and
                  biologicals (other than oral-only ESRD-related drugs) between 2007 and 2012. As the law
                  requires, CMS took into account the most recently available data on ASP and changes in prices
                  for drugs and biologicals reflected in the ESRD market basket percentage increase factor in
                  determining the reduction amount. The statute did not specify to take into account drug
                  acquisition costs.

                  The final regulation was issued on November 22,2013 (See 78 FR 72156) and included a
                  reduction amount which will be phased in over three to four years by offsetting the reduction
                  against the market basket minus productivity adjustment and other payment impacts to create an
                  overall zero percent impact for all ESRD facilities from the previous year's payments for calendar




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                                                        33
Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)   34
Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)   35
                 ACKNOWLEDGMENTS
                 This report was prepared under the direction of Robert A. Vito, Regional
                 Inspector General for Evaluation and Inspections in the Philadelphia
                 regional office.
                 Stephanie Yeager served as the team leader for this study, and
                 Stefanie Vance served as the lead analyst. Central office staff who
                 provided support include Clarence Arnold, Meghan Kearns, and Christine
                 Moritz.




Update: Medicare Payments for ESRD Drugs (OEI-03-12-00550)                                  36
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
